HHS/OIG-Audit--"Report on the Health Care Financing Administration's Internal Control Structure Over Medicare Accounts Receivable for the Fiscal Year Ended September 30, 1994, (A-01-94-00520)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Health Care Financing Administration's Internal Control Structure Over Medicare Accounts Receivables
for the Fiscal Year Ended September 30, 1994," (A-01-94-00520)
August 7, 1995
Complete
Text of Report is available in PDF format (1.46 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our internal control review of the Health Care Financing Administration's (HCFA)
processing of Medicare accounts receivable. We found that contractors have not effectively implemented all the control
procedures necessary to ensure the production of reliable financial information. As a result, we concluded that the risk
is still high that HCFA and the contractors' controls will not prevent or detect, on a timely basis, material misstatements
that could occur in reported accounts receivable balances. Improvements are needed to controls to ensure that (1) adequate
documentation is retained to support reported balances, (2) accounts receivable data is appropriately summarized and verified,
and (3) assets and records are adequately safeguarded. We are recommending that HCFA develop an approach to review and
monitor the accounts receivable internal control structure to provide management reasonable assurance that adequate controls
are present.